<html>
<title> - H.R. 2909, THE INTERCOUNTRY ADOPTION ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




            H.R. 2909, THE INTERCOUNTRY ADOPTION ACT OF 1999

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2000

                               __________

                           Serial No. 106-157

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
67-524 CC                  WASHINGTON : 2000
                               __________

                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Kristen Gilley, Professional Staff Member
                     Jill N. Quinn, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 2909, the Intercountry Adoption Act of 1999. A 
  bill to provide implementation by the United States of Hague 
  Convention on Protection of Children and Cooperation in Respect 
  of Intercountry Adoption, and for other purposes...............     1

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York and Chairman, Committee on 
  International Relations........................................    14
The Honorable Earl Pomeroy, a Representative in Congress from the 
  State of North Dakota..........................................    18

Bills and amendments:

H.R. 2909........................................................    21
    Amendment offered by Hon. Benjamin A. Gilman, Hon. Sam 
      Gejdenson, Hon. Richard Burr, Hon. William Delahunt, Hon. 
      Cass Ballenger, and Hon. Earl Pomeroy (approved)...........    68

 
                H.R. 2909, THE INTERCOUNTRY ADOPTION ACT

                              ----------                              


                       WEDNESDAY, MARCH 22, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2200, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman. Gilman. The Committee will come to order.
    The Committee meets in open session today, pursuant to 
notice, to consider H.R. 2909, the Intercountry Adoption Act of 
the year 2000.
    I regret that we were delayed. That was due to a meeting of 
the Democratic Caucus, and we are now ready to proceed.
    The Chair lays the bill before the Committee. The Clerk 
will report the title of the bill.
    [The bill appears in the appendix.]
    Ms. Bloomer. H.R. 2909, a bill to provide for 
implementation by the United States of the Hague Convention on 
protection of children and cooperation in respect of 
intercountry adoption and further purposes.
    Chairman. Gilman. The Clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1, Short Title: Table of Contents, (a) Short 
Title----
    Chairman. Gilman. The bill will be considered as having 
been read. I have an amendment at the desk, which the Clerk 
will report.
    Ms. Bloomer. Amendment in the nature of a substitute to 
H.R. 2909, offered by Mr. Gilman, Mr. Gejdenson, Mr. Burr, Mr. 
Delahunt, Mr. Ballenger, and Mr. Pomeroy.
    [The amendment of Mr. Gilman appears in the appendix.]
    Chairman. Gilman. I ask unanimous consent that the 
amendment in the nature of a substitute be considered as 
original text for the purposes of amendment, and that it be 
considered as having been read, and be open to amendment at any 
point. Is there any objection?
    [No response.]
    If there is no objection, so ordered.
    I will now recognize myself for 5 minutes on the amendment 
to open the discussion.
    Today we are marking up H.R. 2909, the Intercountry 
Adoption Act of the year 2000. This bipartisan bill has strong 
Congressional support, a total of 45 co-sponsors.
    May we have order, please.
    We will be considering an amendment in the nature of a 
substitute that reflects bipartisan and bicameral 
participation. The purpose of this bill is to provide the 
Department of State with the necessary authorities to implement 
the Hague Convention on the protection of children and 
cooperation in respect of intercountry adoption.
    As a signatory to this Convention, our Nation must now meet 
the obligations of the Convention, which requires the creation 
of a central authority to administer the new duties. The 
legislation designates the State Department as the central 
authority.
    Senator Helms also introduced implementing legislation, 
Senate 682; and Mr. Burr of North Carolina introduced the 
companion bill in the House, H.R. 2342. A major element in the 
Helms-Burr bill, giving total responsibility to the State 
Department, has been accommodated in this substitute. We 
appreciate Mr. Burr's interest and attention to this measure.
    There have been significant differences between the House 
and the Senate bills. However, both Committees, intent on 
enacting the legislation this year, reconcile those differences 
and produce a substitute amendment.
    We appreciate the input received from many outside groups, 
the many individuals, and the administration, who made 
important contributions to this substitute. We are also very 
grateful for the many letters of support we have received for 
this substitute provision.
    I say with confidence that we have before us a solid bill, 
a bill that will enable the State Department to get started on 
performing needed services to the thousands of Americans who 
each year adopt children from overseas. We want those parents 
to have the best information and services available to them. 
This bill provides many consumer protections to improve the 
intercountry adoption process and to establish a consistent and 
reliable system that will be recognized by foreign nations.
    This bill also has been referred to the Ways and Means 
Committee, to the Education and the Workforce Committee, and to 
the Judiciary Committee. We have worked with those committees 
throughout the process, and we hope they will also 
expeditiously advance this bill.
    We also have a letter from Senate sponsors of their bill, 
stating their full support. I will read their short letter 
dated March 21st addressed to myself and to Mr. Gejdenson, our 
Ranking Member.

    Dear Ben and Sam: We understand that the House 
International Relations Committee will consider implementing 
legislation for the Intercountry Adoption Act on Wednesday, 
March 22nd. We are pleased that you will be jointly bringing 
forward a substitute bill--an amalgamation of both the House 
bill, H.R. 2909, and our Senate bill, Senate 682--representing 
a solid compromise that we believe will gain wide support in 
both the House and Senate.
    It is our intention to ensure that the same amendment is 
considered by the Foreign Relations Committee and the full 
Senate. The Foreign Relations Committee will take up the 
legislation, as well as the treaty, on April 11th. We 
anticipate speedy consideration of this very important 
legislation.
    We deeply appreciate your efforts and those of the staff 
for the many hours that have been spent developing this 
compromise legislation. Signed, Senators Jesse Helms and Mary 
Landrieu.

    The Chair now recognizes the Ranking Minority Member, the 
gentleman from Connecticut, Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I want to commend 
the Chairman for his efforts, coming together with this 
bipartisan piece of legislation and an amendment that I think 
reaches a fair compromise.
    I am gratified that the bill has a provision which pushes 
to protect small but established community-based agencies. It 
has broad support from children's international groups, such as 
the Child Welfare League of America. The American Academy of 
Adoption Attorneys has endorsed the amendment. As you 
indicated, we have the support from the Senate.
    I would also particularly like to thank my chief counsel 
for working on this legislation, as well as Mark Agrast of Mr. 
Delahunt's staff who worked tirelessly and added considerably 
to the final product, and as well Mr. Delahunt who always pulls 
his fair share of the load and then some.
    I hope we can move this quickly. It is a good bill and it 
achieves, I think, what is the best interest of the families 
that adopt and the children.
    Thank you, Mr. Chairman.
    Chairman. Gilman. Thank you, Mr. Gejdenson.
    Before asking for other Members' comments, I would like to 
call on Susan Jacobs, Deputy Assistant Secretary of State for 
Legislative Affairs, for the State Department's comments on the 
bill.
    Ms. Jacobs, thank you for being here.
    Ms. Jacobs. Thank you, Mr. Chairman.
    The State Department supports this bill, and we would like 
to thank very much the efforts of the staff--Kristin Gilley, 
David Abromowitz, Mark Agrast, and Cassie Bevin--for working so 
cooperatively with the State Department, with INS, and with 
HHS, on this bill.
    The only trepidation we have is taking on the accreditation 
process because it is not something that we have ever done 
before, and we hope that your trust in us won't be misplaced.
    Chairman. Gilman. Thank you very much.
    [Laughter.]
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to just say at the outset that I support the goals 
of the Intercountry Adoption Act, which are to facilitate 
international adoptions while protecting the best interests of 
the children involved. In general, I think the proposed act 
admirably promotes these objectives.
    I do, however, have a few reservations about the bill in 
its present form, and I expect that when the bill is considered 
by the full House other Members will also have ideas about how 
it can be improved. I will, therefore, support reporting the 
bill out of committee today to advance the process of its 
consideration.
    I strongly recommend, however, that the bill be considered 
under a rule that will allow a reasonable number of amendments. 
Mr. Chairman, I ask that you support such a rule.
    Chairman. Gilman. Thank you, Mr. Smith.
    I want to recognize the gentleman who has done a great deal 
of work on this bill in trying to arrive at a compromise, Mr. 
Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman.
    I would like to start with a personal note. Two weeks from 
tomorrow--I think some might wonder why I have such a personal 
interest in this particular legislation. Two weeks from 
tomorrow my daughter, my younger daughter, who I know you have 
met, arrived in this country from Vietnam on--I know there are 
some folks here with white hair that will have a memory of 
Operation Baby Lift.
    Some of you would remember the first plane that left the 
airport in Saigon crashed, killing some 110 orphans. My 
daughter was on the second plane. She arrived in this country 2 
weeks from tomorrow, April 6th. So this particular bill has 
special meaning to me.
    I am confident that the problems that have been associated 
with international adoption, exorbitant fees in some cases, 
excessive red tape, outright fraud, kidnappings, concealment of 
medical records that should have been made available to 
potentially adoptive parents, improper inducements to 
relinquish parental rights, all of those concerns that really 
are the object of the Convention will be addressed by this 
particular legislation.
    I would hope that once we report this bill out that the 
Chair would consider putting this particular legislation on the 
fast track. In any event----
    Chairman. Gilman. We will try our best, Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Gilman.
    You know, this bill has come a long way. It has been truly 
an odyssey, and I sincerely and genuinely want to thank you, 
Mr. Gilman, for your efforts, and to Sam Gejdenson. You both 
have done extraordinary work. I also recognize my friend and 
colleague from North Carolina, Mr. Burr, who has a genuine and 
sincere interest in this issue. He and I have had many 
conversations on it.
    Dave Camp, who serves on the Ways and Means Committee, and 
is active in adoption issues, also has played a critical role. 
I mean--and I think that it would be remiss not to again state 
the fine work that your staff, represented by Kristin Gilley, 
and Mr. Gejdenson's staff, represented by David Abromowitz--
they have done just Herculean efforts to make this happen.
    I would be remiss not to single out my own legislative 
director, who has taken this particular measure on because he 
is aware of my personal involvement in this issue, for what 
simply is extraordinary in terms of commitment, skill, and the 
ability to help broker what I think is a very responsible 
compromise, which this amendment represents, on a variety of 
tough issues.
    Every compromise involves some degree of sacrifice by all 
concerned. I am honestly very grateful that so many 
organizations, representing such a broad spectrum of opinions, 
have been willing to set aside their lingering reservations to 
give support to this amendment. I think that speaks well of all 
of the stakeholders in this particular effort.
    I am particularly gratified by the progress that has been 
made with regard to one of the most contentious provisions of 
the bill as originally introduced, and that is the provision 
related to the disclosure of adoption records. To say that this 
is an emotionally charged issue would be, at best, a serious 
understatement.
    As an adoptive parent myself, I share the feelings of 
thousands of parents about their children's right to their 
birth records, whether for serious medical reasons or simply to 
satisfy the need that we all have to understand who we are and 
what we are about. Personally, I support maximum responsible 
disclosure, but I also recognize that other people of good 
conscience feel differently.
    The amendment deals with this issue rather simply. It 
simply preserves the status quo. Convention records held in 
Federal immigration files will continue to be available to the 
extent--but only to the extent permitted by current applicable 
Federal law. There is no change whatsoever.
    Access to all other adoption records will continue to be 
governed by applicable State laws. Again, no change. This 
result reflects, really, a hard won compromise. I don't expect 
or suppose that those with strong views on either side of the 
issue will greet this particular formulation with a chorus of 
hallelujahs. But I am satisfied that it is a fair and balanced 
outcome which will enable the laws to evolve as the State 
courts and the State legislatures continue to grapple with this 
very complex and emotional issue.
    It is now my hope that this amendment will be quickly 
approved by both the Committee and the full House, without 
extraneous and controversial amendments that could jeopardize 
the speedy enactment of this legislation and upset the 
comprehensive agreement that has been worked out among the 
various House committees and with our Senate colleagues.
    Again, Mr. Chairman, I would be remiss if I didn't note 
that Senator Biden, Senator Helms, and Senator Landrieu have 
really been actively involved in this particular proposal. I 
applaud each and every one of those Senators.
    Prompt U.S. ratification and implementation of the Hague 
Convention is of enormous support to many thousands of children 
throughout the world who cannot be placed for adoption in their 
countries of origin. That is what we are talking about here. 
U.S. ratification will signal to the rest of the world our 
willingness to help provide homes for these children through 
intercountry adoption.
    I urge my colleagues to support this amendment in the 
nature of a substitute, and look forward to its passage.
    I yield back, Mr. Chairman.
    Chairman. Gilman. Thank you, Mr. Delahunt, for your 
supportive remarks.
    Mr. Burr, who has been one of the sponsors--of the early 
sponsors of this measure, we thank Mr. Burr for his good work 
on this measure.
    Mr. Burr. Thank you, Mr. Chairman. Mr. Chairman, I think it 
is safe to say, in the 6 years that I have been fortunate 
enough to be part of the Congress of the United States, I don't 
think I have seen an issue that was resolved as quickly and as 
effectively as the differences that we had over the legislation 
introduced on the House side. You are to be commended for your 
leadership, along with Mr. Gejdenson.
    But I also want to highlight my colleague, Mr. Delahunt, 
who from day one looked at me and said, ``Don't worry. We can 
work this out.'' And for that I am eternally grateful because I 
think that, in fact, as we have gone through this process 
everybody involved had one thing in mind, and that was to make 
sure that those people who wanted to provide a loving home for 
a child had the opportunity to do it.
    Let me say to my good friends from the State Department, I 
have every degree of confidence in your ability----
    [Laughter.]
    Mr. Burr [continuing]. And wait enthusiastically to watch 
the great success that you achieve.
    Ms. Jacobs. Thank you.
    Mr. Burr. It was clear from our hearings very early on that 
HHS was not the appropriate agency, and I think for those that 
started out that way their testimony quickly led to the lack of 
expertise. Not to suggest that the expertise is already there 
at State, but clearly the experience has been established in 
the past that will make this an expertise.
    It is my understanding that our colleagues from the Senate 
will consider the same language when they mark up the 
legislation in the Foreign Relations Committee. I am hopeful 
that we can now proceed on a track that gets this legislation 
passed, signed into law. Hopefully, we can get it done before 
this Congress adjourns, and I look forward to working with each 
one of my colleagues on making sure we do that.
    I would like to also take this opportunity to thank the 
many individuals and groups who took the time to contact me 
with their concerns and comments about the process that we are 
engaged in. I would especially like to thank those who were 
parents of adopted children, who internationally adopted 
children who came in to talk firsthand about the experience 
they went through, and how in a perfect bill it should work. I 
think we have done everything to reach that point that, in 
fact, they shared with us.
    Despite our different approaches, Mr. Chairman, I think it 
is safe to say that we did want the same thing, and that is to 
help those who want nothing more than to provide a child with a 
loving home. I believe this amendment, if accepted by the 
Committee, will provide them with at least some of the help 
they need.
    I encourage my colleagues to support the substitute. I 
thank you once again, and I yield back.
    Mr. Gejdenson. Mr. Chairman.
    Chairman. Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I would ask--you know, Members 
are kind of strewn around the Capitol at the moment. In order 
to facilitate a quorum and not wanting to cut anybody off, but 
that we would set, on the assumption that we have a quorum, 
that in 5 minutes we actually hold the vote.
    That way Members, as they are being called, will hopefully 
be more ready to come, knowing that they won't be held up by an 
extended discussion. That if any other discussion occurs, we 
could do it after the vote on the bill. Since there seems to be 
broad support and no opposition in moving forward.
    Chairman. Gilman. Thank you, Mr. Gejdenson. Without 
objection, within 5 minutes we will have a final vote on the 
measure.
    Any further requests for discussion? Anyone have any 
further requests for discussion?
    Mr. Gejdenson. Move the amendment.
    Chairman. Gilman. If there are no further amendments, the 
previous question is ordered on the Gilman amendment in the 
nature of a substitute, as amended.
    The question is on agreeing to the Gilman amendment in the 
nature of a substitute. All in favor of the Gilman amendment in 
the nature of a substitute, as amended, signify by saying aye.
    [Ayes.]
    Any opposed say no.
    [No response.]
    The amendment is agreed to.
    We will take just a moment--recess--to give the Members an 
opportunity to respond to the request for attendance.
    [Recess.]
    Chairman. Gilman. The gentleman from Nebraska is recognized 
to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Committee report the 
bill H.R. 2909, as amended, with a recommendation that the 
bill, as amended, do pass.
    Chairman. Gilman. The question is on the motion to report 
the bill, as set forth by Mr. Bereuter, and reported favorably 
to the House. All those in favor say aye.
    [Ayes.]
    All those opposed say no.
    [No response.]
    Mr. Gejdenson. Ask for a recorded vote.
    Chairman. Gilman. Mr. Gejdenson asks for a recorded vote. 
All in favor signify with a show of hands. It is a sufficient 
number. Without objection, we will now proceed with the roll 
call. The Clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman. Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes aye.
    Mr. Goodling.
    Mr. Goodling. Aye.
    Ms. Bloomer. Mr. Goodling votes aye.
    Mr. Leach.
    [No response.]
    Mr. Hyde.
    [No response.]
    Mr. Bereuter.
    Mr. Bereuter. Aye.
    Ms. Bloomer. Mr. Bereuter votes yes.
    Chairman. Gilman. May we have a little order, please, so 
the Clerk can hear the responses.
    Ms. Bloomer. Mr. Smith.
    Mr. Smith. Aye.
    Ms. Bloomer. Mr. Smith votes yes.
    Mr. Burton.
    [No response.]
    Mr. Gallegly.
    [No response.]
    Ms. Ros-Lehtinen.
    [No response.]
    Mr. Ballenger.
    Mr. Ballenger. Aye.
    Ms. Bloomer. Mr. Ballenger votes yes.
    Mr. Rohrabacher.
    [No response.]
    Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Bloomer. Mr. Manzullo votes yes.
    Mr. Royce.
    [No response.]
    Mr. King.
    Mr. King. Aye.
    Ms. Bloomer. Mr. King votes yes.
    Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Bloomer. Mr. Chabot votes yes.
    Mr. Sanford.
    Mr. Sanford. Aye.
    Ms. Bloomer. Mr. Sanford votes yes.
    Mr. Salmon.
    [No response.]
    Mr. Houghton.
    [No response.]
    Mr. Campbell.
    [No response.]
    Mr. McHugh.
    Mr. McHugh. Aye.
    Ms. Bloomer. Mr. McHugh votes yes.
    Mr. Brady.
    [No response.]
    Mr. Burr.
    Mr. Burr. Aye.
    Ms. Bloomer. Mr. Burr votes yes.
    Mr. Gillmor.
    Mr. Gillmor. Yes.
    Ms. Bloomer. Mr. Gillmor votes yes.
    Mr. Radanovich.
    [No response.]
    Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr. Cooksey votes yes.
    Mr. Tancredo.
    Mr. Tancredo. Aye.
    Ms. Bloomer. Mr. Tancredo votes yes.
    Chairman. Gilman. If I might interrupt our roll call a 
moment, let me remind our Members that we have our very 
important oil crisis price reduction measure on the floor in 
the early afternoon. We will welcome all of our Members to be 
present at that time. Thank you.
    Please continue.
    Ms. Bloomer. Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    [No response.]
    Mr. Berman.
    [No response.]
    Mr. Ackerman.
    [No response.]
    Chairman. Gilman. I ask our Members to stay until the vote 
is complete, just in the event we have any problem.
    Please continue.
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Mr. Martinez.
    [No response.]
    Mr. Payne.
    Mr. Payne. Yes.
    Ms. Bloomer. Mr. Payne votes yes.
    Mr. Menendez.
    [No response.]
    Mr. Brown.
    [No response.]
    Ms. McKinney.
    [No response.]
    Mr. Hastings.
    Mr. Hastings. Aye.
    Ms. Bloomer. Mr. Hastings votes yes.
    Chairman. Gilman. We are asking our Members not to leave 
until the roll call is over.
    Ms. Bloomer. Ms. Danner.
    Ms. Danner. Aye.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Aye.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    [No response.]
    Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    [No response.]
    Mr. Pomeroy.
    Mr. Pomeroy. Yes.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    Mr. Delahunt. Yes.
    Ms. Bloomer. Mr. Delahunt votes yes.
    Mr. Meeks.
    [No response.]
    Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    [No response.]
    Mr. Hoeffel.
    Mr. Hoeffel. Aye.
    Ms. Bloomer. Mr. Hoeffel votes yes.
    OK. Mr. Leach.
    [No response.]
    Mr. Hyde.
    [No response.]
    Chairman. Gilman. The Clerk is calling the absentees.
    Ms. Bloomer. Mr. Burton.
    [No response.]
    Mr. Gallegly.
    [No response.]
    Ms. Ros-Lehtinen.
    [No response.]
    Mr. Rohrabacher.
    [No response.]
    Mr. Royce.
    [No response.]
    Mr. Salmon.
    Mr. Salmon. Aye.
    Ms. Bloomer. Mr. Salmon votes yes.
    Mr. Houghton.
    [No response.]
    Mr. Campbell.
    [No response.]
    Mr. Brady.
    [No response.]
    Mr. Radanovich.
    [No response.]
    Mr. Lantos.
    [No response.]
    Mr. Berman.
    [No response.]
    Mr. Ackerman.
    [No response.]
    Mr. Faleomavaega.
    [No response.]
    Mr. Martinez.
    [No response.]
    Mr. Menendez.
    [No response.]
    Mr. Brown.
    [No response.]
    Ms. McKinney.
    [No response.]
    Mr. Wexler.
    [No response.]
    Mr. Davis.
    Mr. Davis. Aye.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Meeks.
    [No response.]
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes yes.
    Chairman. Gilman. The Clerk will read the tally.
    Ms. Bloomer. On this vote, there were 28 ayes and zero 
nays.
    Chairman. Gilman. Without objection, the bill is 
authorized. The motion is agreed to. Without objection, the 
Chairman is authorized to make motions under Rule 20 relative 
to going to conference on this or a companion bill for the 
Senate. Without objection, the Chief of Staff is authorized to 
make grammatical changes to the bill.
    Mr. Pomeroy.
    Mr. Pomeroy. Mr. Chairman, I ask unanimous consent to 
include a statement in the record.
    Chairman. Gilman. Without objection.
    The Committee stands adjourned.
    [Whereupon, at 10:58 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             MARCH 22, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7524.001
    
    [GRAPHIC] [TIFF OMITTED] T7524.002
    
    [GRAPHIC] [TIFF OMITTED] T7524.003
    
    [GRAPHIC] [TIFF OMITTED] T7524.004
    
    [GRAPHIC] [TIFF OMITTED] T7524.006
    
    [GRAPHIC] [TIFF OMITTED] T7524.007
    
    [GRAPHIC] [TIFF OMITTED] T7524.008
    
    [GRAPHIC] [TIFF OMITTED] T7524.009
    
    [GRAPHIC] [TIFF OMITTED] T7524.010
    
    [GRAPHIC] [TIFF OMITTED] T7524.011
    
    [GRAPHIC] [TIFF OMITTED] T7524.012
    
    [GRAPHIC] [TIFF OMITTED] T7524.013
    
    [GRAPHIC] [TIFF OMITTED] T7524.014
    
    [GRAPHIC] [TIFF OMITTED] T7524.015
    
    [GRAPHIC] [TIFF OMITTED] T7524.016
    
    [GRAPHIC] [TIFF OMITTED] T7524.017
    
    [GRAPHIC] [TIFF OMITTED] T7524.018
    
    [GRAPHIC] [TIFF OMITTED] T7524.019
    
    [GRAPHIC] [TIFF OMITTED] T7524.020
    
    [GRAPHIC] [TIFF OMITTED] T7524.021
    
    [GRAPHIC] [TIFF OMITTED] T7524.022
    
    [GRAPHIC] [TIFF OMITTED] T7524.023
    
    [GRAPHIC] [TIFF OMITTED] T7524.024
    
    [GRAPHIC] [TIFF OMITTED] T7524.025
    
    [GRAPHIC] [TIFF OMITTED] T7524.026
    
    [GRAPHIC] [TIFF OMITTED] T7524.027
    
    [GRAPHIC] [TIFF OMITTED] T7524.028
    
    [GRAPHIC] [TIFF OMITTED] T7524.029
    
    [GRAPHIC] [TIFF OMITTED] T7524.030
    
    [GRAPHIC] [TIFF OMITTED] T7524.031
    
    [GRAPHIC] [TIFF OMITTED] T7524.032
    
    [GRAPHIC] [TIFF OMITTED] T7524.033
    
    [GRAPHIC] [TIFF OMITTED] T7524.034
    
    [GRAPHIC] [TIFF OMITTED] T7524.035
    
    [GRAPHIC] [TIFF OMITTED] T7524.036
    
    [GRAPHIC] [TIFF OMITTED] T7524.037
    
    [GRAPHIC] [TIFF OMITTED] T7524.038
    
    [GRAPHIC] [TIFF OMITTED] T7524.039
    
    [GRAPHIC] [TIFF OMITTED] T7524.040
    
    [GRAPHIC] [TIFF OMITTED] T7524.041
    
    [GRAPHIC] [TIFF OMITTED] T7524.042
    
    [GRAPHIC] [TIFF OMITTED] T7524.043
    
    [GRAPHIC] [TIFF OMITTED] T7524.044
    
    [GRAPHIC] [TIFF OMITTED] T7524.045
    
    [GRAPHIC] [TIFF OMITTED] T7524.046
    
    [GRAPHIC] [TIFF OMITTED] T7524.047
    
    [GRAPHIC] [TIFF OMITTED] T7524.048
    
    [GRAPHIC] [TIFF OMITTED] T7524.049
    
    [GRAPHIC] [TIFF OMITTED] T7524.050
    
    [GRAPHIC] [TIFF OMITTED] T7524.051
    
    [GRAPHIC] [TIFF OMITTED] T7524.052
    
    [GRAPHIC] [TIFF OMITTED] T7524.053
    
    [GRAPHIC] [TIFF OMITTED] T7524.054
    
    [GRAPHIC] [TIFF OMITTED] T7524.055
    
    [GRAPHIC] [TIFF OMITTED] T7524.056
    
    [GRAPHIC] [TIFF OMITTED] T7524.057
    
    [GRAPHIC] [TIFF OMITTED] T7524.058
    
    [GRAPHIC] [TIFF OMITTED] T7524.059
    
    [GRAPHIC] [TIFF OMITTED] T7524.060
    
    [GRAPHIC] [TIFF OMITTED] T7524.061
    
    [GRAPHIC] [TIFF OMITTED] T7524.062
    
    [GRAPHIC] [TIFF OMITTED] T7524.063
    
    [GRAPHIC] [TIFF OMITTED] T7524.064
    
    [GRAPHIC] [TIFF OMITTED] T7524.065
    
    [GRAPHIC] [TIFF OMITTED] T7524.066
    
    [GRAPHIC] [TIFF OMITTED] T7524.067
    
    [GRAPHIC] [TIFF OMITTED] T7524.068
    
    [GRAPHIC] [TIFF OMITTED] T7524.069
    
    [GRAPHIC] [TIFF OMITTED] T7524.070
    
    [GRAPHIC] [TIFF OMITTED] T7524.071
    
    [GRAPHIC] [TIFF OMITTED] T7524.072
    
    [GRAPHIC] [TIFF OMITTED] T7524.073
    
    [GRAPHIC] [TIFF OMITTED] T7524.074
    
    [GRAPHIC] [TIFF OMITTED] T7524.075
    
    [GRAPHIC] [TIFF OMITTED] T7524.076
    
    [GRAPHIC] [TIFF OMITTED] T7524.077
    
    [GRAPHIC] [TIFF OMITTED] T7524.078
    
    [GRAPHIC] [TIFF OMITTED] T7524.079
    
    [GRAPHIC] [TIFF OMITTED] T7524.080
    
    [GRAPHIC] [TIFF OMITTED] T7524.081
    
    [GRAPHIC] [TIFF OMITTED] T7524.082
    
    [GRAPHIC] [TIFF OMITTED] T7524.083
    
    [GRAPHIC] [TIFF OMITTED] T7524.084
    
    [GRAPHIC] [TIFF OMITTED] T7524.085
    
    [GRAPHIC] [TIFF OMITTED] T7524.086
    
    [GRAPHIC] [TIFF OMITTED] T7524.087
    
    [GRAPHIC] [TIFF OMITTED] T7524.088
    
    [GRAPHIC] [TIFF OMITTED] T7524.089
    
    [GRAPHIC] [TIFF OMITTED] T7524.090
    
    [GRAPHIC] [TIFF OMITTED] T7524.091
    
    [GRAPHIC] [TIFF OMITTED] T7524.092
    
    [GRAPHIC] [TIFF OMITTED] T7524.093
    
    [GRAPHIC] [TIFF OMITTED] T7524.094
    
    [GRAPHIC] [TIFF OMITTED] T7524.095
    
    [GRAPHIC] [TIFF OMITTED] T7524.096
    
    [GRAPHIC] [TIFF OMITTED] T7524.097
    
    [GRAPHIC] [TIFF OMITTED] T7524.098
    
    [GRAPHIC] [TIFF OMITTED] T7524.099

                                <all>

</pre></body></html>
